W A I V E R
SUPREME COURT OF THE UNITED STATES
No.

20-1118

Robert Grundstein

Lamoille Superior Docket Entries/Orders

(Petitioner)

(Respondent)

V.

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):
Vermont Attorney General Thomas J. Donovan, Jr.

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:
Date:

2/23/20

(Type or print) Name

Benjamin D. Battles
Mr.

Ms.

Mrs.

Firm

Vermont Attorney General's Office

Address

109 State Street

City & State

Montpelier, VT

Phone

(802) 828-5500

Miss

Zip 05609
Email

benjamin.battles@vermont.gov

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.
Robert Grundstein, 18 Griggs Road, Morrisville, VT 05661

cc:

